February 7, 2011

SYLVESTER BLACK
VICE PRESIDENT, OPERATIONS, WESTERN AREA

SUBJECT: Audit Report – Facility Optimization: Western Area
        (Report Number DA-AR-11-001)

This report presents the results of our audit of facility optimization in the Western Area
(Project Number 10YG020DA002). The U.S. Postal Service Office of Inspector General
(OIG) initiated this audit from a random sample of districts nationwide. For the
Western Area, our objective was to identify opportunities to optimize existing real estate
in the Alaska, Central Plains, Mid-America, Northland, and Seattle Districts. See
Appendix A for additional information about this audit.

The Western Area uses 3,592 facilities with almost 24 million interior square feet (SF) in
the five districts noted above. While the area employs these facilities, it has experienced
a significant reduction in workload in recent years. From fiscal years (FYs) 2005 to
2010, mail volume in the Western Area has dropped 20 percent. Likewise, mail volume
in the Alaska, Central Plains, Mid-America, Northland, and Seattle Districts has
decreased by 20 percent, 19 percent, 19 percent, 20 percent, and 22 percent,
respectively. This reduction in workload provides an opportunity to reevaluate space
needs and identify potential excess space.

Conclusion

The districts analyzed in the Western Area have over 4.5 million SF in excess of what
their workload suggests they need. The U.S. Postal Service has the option to optimize
excess real property through:

      Disposal – selling property.
      Outleasing – leasing owned property.
      Subleasing/Reassignment – reassigning leased property.
      Development – investing in real estate projects.

With two major efforts underway, the Postal Service has begun taking action to optimize
existing space. Specifically, the Western Area plans to dispose of 1,476,803 SF of this
excess through approved optimization projects, with another 25,896 SF scheduled for
evaluation in FY 2011 for the five districts selected for our review. Although it has made

       This report has not yet been reviewed for release under FOIA or the Privacy
       Act. Distribution should be limited to those within the Postal Service with a
       need to know.
Facility Optimization: Western Area                                                                     DA-AR-11-001



progress, the Postal Service can do more to dispose of excess interior space more
quickly. The opportunity to optimize excess interior space in the reviewed districts exists
because:

        Postal Service policy requires installation heads to report excess space, but does
         not provide the necessary guidance to effectively accomplish this task.

        The excess space reporting system does not track metrics such as dates or
         space conditions to allow for prioritizing disposal actions.

We estimate that if the Western Area initiates disposal1 action for the excess space we
identified, there is an opportunity to realize $173,835,8812 over typical and remaining
lease terms. We consider this amount to be funds put to better use.3 See Appendix B
for our detailed analysis of this topic and Appendix C for our calculation of monetary
impact.

Our audit also noted that the Postal Service could be more aggressive in seeking
opportunities to fill the space needs of federal entities. In the districts reviewed, our
analysis shows that excess space identified at Postal Service facilities may be able to
accommodate 71 percent of current federal agencies’ space needs. This opportunity
exists because the Postal Service has not capitalized on the priority status it has for
filling federal agencies’ space needs. By capitalizing on this status, the Postal Service
has another option for reducing its facility infrastructure size and generating additional
revenue. See Appendix D for more information.

We recommend the vice president, Operations, Western Area; district managers; area
managers; and the Western Facility Service Office manager work in coordination to:

1. Clarify procedures for reporting excess space.

2. Initiate disposal actions for excess space identified.

3. Pursue opportunities with federal agencies as an option to optimize excess property.




1
  Disposal actions available include sale, termination of lease, consolidation, and/or subleasing. At a minimum, the
Postal Service can out-lease or initiate a sublet action for owned or leased property, respectively.
2
  The annualized savings is $17,383,588.
3
  Funds that could be used more efficiently by implementing recommended actions. This amount does not include
excess square footage that is part of an approved node study.


                                                           2
Facility Optimization: Western Area                                             DA-AR-11-001




Management’s Comments

Management agreed with the finding that excess space exists in a number of facilities,
agreed to the recommendations made, and stated corrective actions to address the first
two recommendations will be in place by March 2011. They conveyed that corrective
action to address the third recommendation is an ongoing process with results available
each fiscal year. While management agreed to develop a more accurate process and
additional metrics to better manage excess space, as well as continue to make excess
property available to other federal agencies, management did not agree with the
amount of excess space or the potential monetary impact reported. Specifically, they
disagreed with the methodology used to calculate existing excess space, in addition to
the data and cost factors used to value the excess space and calculate monetary
impact.

In reference to the level of excess space reported, management conveyed that our
methodology does not include allowances for:

    1. Unusable space such as basements and corridors. The audit treats every square
       foot as usable and leasable.

    2. Unique operational functions not included in standard designs.
         
    3. Historic property.
         
    4. Parking and dock space requirements.
         
    5. Large inflexible retail lobbies.
         
    6. Unmaintained excess space too costly to renovate.

In reference to the data and cost factors used in our calculations, management
disagreed with the:

       Level of impacted facilities within the approved optimization studies reported.

       Earned facility square footage calculation because it did not account for unique
        operations that are not part of the basic standard small building design plan.
         
       Sublease efficiency rate used to calculate the amount of excess space that could
        potentially be successfully subleased.
         
       Build-out cost factors.

As such, management believes the accurate way to calculate monetary impact is by
multiplying useable excess space by sublease value less conversion cost. This
calculated outcome should then be adjusted for maintenance and utility savings.


                                             3
Facility Optimization: Western Area                                            DA-AR-11-001




Finally, management expressed the challenges facing the Postal Service when
disposing property in poor market conditions and actions they have already taken to
reduce excess property. In particular, management has focused its attention on
properties that have more than 10,000 interior SF which represents 16 percent of
buildings and 76 percent of interior square footage. This allows the Postal Service to
capture the largest opportunities for excess space that is usable. See Appendix E for
management’s comments in their entirety.

Evaluation of Management’s Comments

Considering the rapid decline of workload and the dynamic nature of excess space, the
OIG considers management’s comments responsive to the recommendations.
Management’s corrective actions over time should resolve the issues identified in the
audit report. With respect to the methodology used to calculate excess space, we did
not determine whether the excess space identified was usable, in part because Postal
Service systems do not identify usable areas. We agree realty management policies
and systems need to be updated to define usable areas. According to commercial realty
standards,4 usable areas are generally measured from “paint to paint” inside the
permanent walls to the middle of partitions. No deductions are made for columns and
projections necessary to the building. Our calculations reflect these standards.

As it relates to the usability of basements, we note that Postal Service Headquarters
and many federal agency buildings use basement space. We did not include allowances
for existing functions, building layout inefficiencies, and inflexible spaces because the
Postal Service’s current space standards did not specify these allowances. Our audit
focused on interior excess space, thus, enclosed parking and dock space were outside
the scope of the audit.

Postal Service management also conveyed that we did not consider the historic nature
of buildings and the challenges or costs associated with making changes to these
buildings. While we agree that there are properties of the Postal Service that are historic
in nature, we do not feel this has a large impact in the presentation of our results. The
number of eligible historic buildings listed in the Postal Service’s systems account for
less than 1 percent of their properties. Also, while the Postal Service is required to
consult with historical organizations, they are not bound by these consultations or
decisions.

The standard building design matrix served as the basis for determining earned space.
During the on-site visits, we inquired if there were unique operations conducted at the
facility, such as bulk mail entry units or delivery bar code sorters, and allotted the
necessary space for those functions. Additionally, we applied the non-Flats Sequencing
Sorter (FSS) rate of 123 SF per route to determine the earned delivery space, rather
than the post-FSS rate of 95 SF per route. Conservatively, we did not consider
performance measures such as street efficiency or alternate access sales channels
4
    www.boma.org.


                                             4
Facility Optimization: Western Area                                                DA-AR-11-001



which would decrease the earned facility size and increase excess space. We did not
apply the standard building design criteria to plants or administrative facilities.
Administrative facilities were not in the scope of our review. In those instances where
administrative space was co-located with operational space, we specifically excluded
the administrative space from our calculations.

The Postal Service does not have a methodology of determining “build-out” costs at a
national, area or district level. As such, to determine build-out cost we used the average
build-out costs for the district as presented in their node studies. We note that build-out
costs are negotiable and lessees, at times, absorb the cost of conversion. We built in
several different tolerances relating to the size of excess space at sites reviewed and
considered the marketability of properties within the districts. Further, the multiple
actions, such as lease terminations, disposals, and space/lease reductions, within the
approved node studies were acknowledged and reflected in our monetary impact
calculations. We recognized realty market conditions and discounted our excess space
calculations by the national commercial vacancy rate of 14 percent. Therefore, we
consider our presentation of the level of excess space and value a reasonable estimate
of the opportunity loss associated with unproductive assets.

Finally, we recognize the efforts made to optimize Postal Service real estate and
management’s attention to properties greater than 10,000 SF. We believe that once
management modernizes its realty management systems to have greater visibility of
excess space, it will be able to better prioritize disposal actions associated with its full
building inventory.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel A. Castillo, director,
Engineering and Facilities, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments



                                               5
Facility Optimization: Western Area           DA-AR-11-001



cc: Megan Brennan
    Tom A. Samra
    Jack L. Gustafsson
    Dianne P. Horbochuk
    Rick J. Pivovar
    Mark A. Martinez
    Anthony C. Williams
    Katherine S. Nash
    Corporate Audit and Response Management




                                      6
Facility Optimization: Western Area                                                DA-AR-11-001



                               APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Western Area leases or owns 3,592 facilities with over 23 million interior SF to
move mail in the Alaska, Central Plains, Mid-America, Northland, and Seattle Districts.
The consolidation or closure of facilities is a widely discussed topic due to declining mail
volume and the resulting financial condition of the Postal Service. In response, the
Postal Service’s Facilities and Retail Management organizations have implemented
initiatives to optimize space, namely, the initiation of the Facility Optimization Program
and the Station and Branch Optimization Consolidation (SBOC) program.

In April 2008, the vice president of Facilities initiated the Facility Optimization Program
to balance the portfolio of existing delivery facilities with the Postal Service’s current and
projected space needs. The program’s objectives are to generate revenue and reduce
rent obligations and operational costs. The process entails identifying, investigating,
analyzing, and approving space before executing the approved optimization action. The
Western Area has two approved optimization studies in the Alaska District, three in the
Central Plains District, four in the Mid-America District, four in the Northland District, and
10 in the Seattle District.

Established in May 2009, the SBOC program provides tools and strategies to evaluate
the effectiveness of Postal Service retail placement in support of the Transformation
Plan’s goals of improved service and increased revenue. As of February 26, 2010,
management was considering the following facilities for closure: the Woods Park
Station; and Stations A, B, and C in the Central Plains District and the Metro Mall,
Southeast Station, William M Chick, Fairfax, and Packer facilities in the
Mid-America District.

In addition to the ongoing node studies5 and SBOC program, the districts have taken
the following initiatives to consolidate space:

          The Northland District has begun plans to reconfigure their plants. For example,
           they sold the dock and land of the St Paul Processing and Distribution Center
           (P&DC) to the city to use as a train depot. They have moved the mail processing
           operations to the new Eagan P&DC.

          The Mid-America District has been actively sub-leasing space in its facilities and
           is selling Hallmark cards in its existing lobby space.

          The Seattle District indicated that by moving operations out of the Seattle Air Mail
           Center and another facility, it realized cost savings and eliminated leases.

          The Alaska and Central Plains Districts are proactively evaluating space
           requirements based on workload changes.
5
    Studies of consolidation for sites in a geographic radius.


                                                                 7
Facility Optimization: Western Area                                               DA-AR-11-001




In October 2010, the Postal Service consolidated optimization efforts to manage
excess space. The goal is to manage the excess space portfolio for all space types in
one overall optimization effort. Currently, the Postal Service has a program in place to
optimize carrier delivery facilities through the use of node studies. However, the Postal
Service will now include mail processing plants, retail facilities, small delivery units,
administrative space, and carrier delivery facilities in one overall optimization effort.
The goal is to manage the excess space portfolio for all space types in one overall
initiative. This integrated effort between Facilities Headquarters and the field offices will
use computer modeling and equipment analysis along with local analysis and metro
planning to form a headquarters and district/area partnership.

To supplement and expand on existing Postal Service initiatives, the OIG developed a
Real Estate Risk Model (RERM) to identify and prioritize emerging facility risk. The risk
model measures facility performance results by district for the following nine metrics:

                                 Table 1 – Risk Metrics
                                      RERM Metrics
                                               Excess Postal Service Identified
  Ratio of Mail Volume to Interior SF
                                               Interior Space
  Ratio Revenue to Interior SF                 Excess Land
  Ratio of Total Expense to Interior SF        Facility Condition
  Ratio of Employees to Interior SF            Density, Geographic Location
  Ratio of Retail Revenue to Total Expense

We randomly selected 17 districts to study excess interior space on a national basis;
five of the selected districts were in the Western Area.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to identify opportunities for the Postal Service’s Western Area to
optimize existing real estate. We visited 158 of 3,592 facilities in the Alaska, Central
Plains, Mid-America, Northland, and Seattle Districts, representing 16 percent of the
OIG-calculated excess space when actual interior space is compared to space standards.
The scope of the audit primarily included main post offices (MPOs), carrier annexes,
stations, branches, and mail processing facilities. To accomplish our objective we visited
selected facilities, conducted interviews, and examined other relevant materials.




                                              8
    Facility Optimization: Western Area                                                                      DA-AR-11-001




    To calculate an earned6 facility size, we compared the workload data from Postal Service
    databases7 to the number of carrier routes, the number of rented post office box sections,
    and peak window use. We based the earned facility size on Postal Service criteria8 for
    planning new space projects, which differs from existing Postal Service initiatives9
    because it focuses on the total facility size, not specific retail or delivery operations. We
    calculated excess space by taking the difference between earned facility size and actual
    interior square footage reported in the electronic Facilities Management System (eFMS).
    For the plants, the local in-plant support provided us the excess space data which we
    assessed for reasonableness.

    We conducted this performance audit from June 2010 to February 2011 in accordance
    with generally accepted government auditing standards and included such tests of
    internal controls as we considered necessary under the circumstances. Those
    standards require that we plan and perform the audit to obtain sufficient, appropriate
    evidence to provide a reasonable basis for our findings and conclusions based on our
    audit objective. We believe that the evidence obtained provides a reasonable basis for
    our findings and conclusions based on our audit objective. We discussed our
    observations and conclusions with management on December 14, 2010, and included
    their comments where appropriate.

    We assessed the reliability of facility-related data by verifying the accuracy of computer
    generated information through observations during facility tours and interviewing agency
    officials knowledgeable about the data. We determined that the data was sufficiently
    reliable for the purposes of this report.

    PRIOR AUDIT COVERAGE

    The following audit reports are relevant to the Postal Service’s facility infrastructure:

                        Report              Final Report            Monetary
 Report Title                                                                                    Report Results
                        Number                  Date                 Impact
Facility                                                                             The OIG identified 1.98 million SF of
Optimization:                                                                        excess space. The Postal Service
                     DA-AR-10-008             8/25/2010            $157,963,990
Northern New                                                                         agreed with recommendations but
Jersey District                                                                      disagreed with the monetary impact.
Facility                                                                             The OIG identified 740,529 SF of
Optimization:                                                                        excess space. The Postal Service
                     DA-AR-10-009             8/25/2010             $23,517,019
Chicago                                                                              agreed with recommendations but
District                                                                             disagreed with the monetary impact.


    6
      We used Postal Service criteria established in March of 2007 outlined in a letter issued by the senior vice president
    of Operations. In support of these new criteria, the headquarters Facility Group, Planning and Approval, designed
    matrices to assist with the space requirements of planned facilities.
    7
      WebBATS Monthly Summary Data for issued post office box information, Intelligent Mail and Address Quality
    Delivery Statistics Summary for route information, and Retail Data Mart for earned peak modeled window staffing.
    8
      Space Requirements Matrix for Non-FSS offices.
    9
      SBOC and Facilities Optimization programs.


                                                               9
    Facility Optimization: Western Area                                                           DA-AR-11-001




                      Report              Final Report         Monetary
 Report Title                                                                           Report Results
                      Number                  Date              Impact
Facility                                                                     The OIG identified 2.4 million SF of
Optimization:                                                                excess space. The Postal Service
                   DA-AR-10-010            8/25/2010          $446,258,222
New York                                                                     agreed with recommendations but
District                                                                     disagreed with monetary impact.
                                                                             The Government Accountability Office
Restructuring                                                                added the U.S. Postal Service’s
the U.S. Postal                                                              financial condition to the list of
Service to                                                                   high-risk areas needing Congress’
Achieve            GAO-09-937SP            7/28/2009             None        attention and the executive branch to
Sustainable                                                                  achieve broad-based transformation.
Financial                                                                    It recognized the need to reduce the
Viability                                                                    facility infrastructure. There was no
                                                                             Postal Service response in the report.
                                                                             Federal agencies have taken some
Federal Real                                                                 positive steps to address real property
Property: An                                                                 issues but some of the core problems
Update on          GAO-09-801T             7/15/2009             None        that led to designation of this area as
High-Risk                                                                    “high-risk” continue to persist. There
Issues                                                                       was no Postal Service response in the
                                                                             report.
                                                                             The Postal Service will require action
Network                                                                      in a number of areas, such as
Rightsizing                                                                  rightsizing its retail and mail
Needed to                                                                    processing networks by consolidating
Help Keep          GAO-09-674T             5/20/2009             None        operations and closing unnecessary
USPS                                                                         facilities. The Postal Service generally
Financially                                                                  agreed with the accuracy of the
Viable                                                                       statements and provided technical
                                                                             comments, which were incorporated.




                                                         10
Facility Optimization: Western Area                                                                      DA-AR-11-001




                                 APPENDIX B: DETAILED ANALYSIS

Excess Space is Significant in the Western Area

Based on facility space requirements, 10 we calculated that the districts reviewed in the
Western Area maintain over 4.5 million SF more than what is required for current
operational workload, thus can be considered potential excess space. As depicted in
Chart 1, excess space was 28 percent of the total interior square footage.

                     Chart 1 – Area Interior and Excess Space Comparison




The breakdown of interior square footage and OIG-calculated excess for the 158 visited
facilities in the Western Area is represented in Table 2. MPOs contributed 32 percent of
the excess space, while stations (23 percent), carrier annexes (15 percent), and
branches (14 percent) followed to a lesser degree.

                         Table 2 – Excess Space by Facility Type Visited
                             Facility                                              OIG-              Interior
          Facility                         Percentage        Percentage
                              Type                                              Calculated           Square
           Type                             of Count          of Excess
                             Count                                               Excess              Footage
     MPO                            32            20.3%            32.3%            412,016             787,953
     Station                        41            25.9%            22.8%            291,474             829,459
     Carrier Annex                  17            10.8%            14.8%            188,712             362,542
     Branch                         18            11.4%            13.5%            172,874             362,086
     Plant                          21            13.3%             8.9%            113,339           5,323,766
     Finance Station                29            18.4%             7.7%             97,690             194,551
     Total                         158           100.0%           100.0%          1,276,105           7,860,357

10
   We used Postal Service criteria established in March of 2007 outlined in a letter issued by the senior vice president
of Operations. In support of these new criteria, the Headquarters Facility Group, Planning and Approval, designed
matrices to assist with the space requirements of planned facilities.


                                                          11
      Facility Optimization: Western Area                                             DA-AR-11-001



      To highlight excess space in the Western Area, Illustration 1 depicts two facilities with
      excess interior space. The Independence MPO is Postal Service-owned and has
      delivery and retail operations along with vacant space in the facility. The West Edina
      Carrier Annex is another Postal Service-owned facility with delivery operations and
      significant vacant space on the workroom floor. According to our calculations,
      83 percent of the sites visited contained excess space, ranging from 265 to
      91,246 SF.

                           Illustration 1 – Examples of Excess Space
Independence MPO                                   West Edina Carrier Annex
301 West Lexington Avenue                          7360 Bush Lake Road
Independence, MO                                   Minneapolis, MN
Interior Square Footage:54,390                     Interior Square Footage:29,739
OIG-Calculated Excess SF: 38,876                   OIG-Calculated Excess SF: 21,739




      Causes for Excess Interior Space

      The opportunity to optimize excess interior space in the Western Area exists because:

             Postal Service policy requires installation heads to report excess space, but does
              not provide the necessary guidance to effectively accomplish this task.

             Facility systems do not track metrics such as dates or space conditions to allow
              effective management of excess space.

      Guidance Can Be Improved

      A review of the facility database user guide shows it does not provide sufficient
      guidance for identifying excess space using the workload-driven space requirements.
      For example, the facility database space survey asks installation heads to objectively
      answer “Do you have any vacant space in your facility that is in leasable condition and
      has access that does not compromise the security of the operation?” without providing


                                                   12
Facility Optimization: Western Area                                             DA-AR-11-001



further guidance or referencing space standards. While we identified excess space at
131 of the 158 Postal Service facilities we visited, only five locations answered “yes” to
the vacant leasable space survey question. Further, our interviews revealed Operations’
employees were unaware of the method used to identify excess space at their facilities.
As a result, we identified over 4.5 million excess SF in the Alaska, Central Plains,
Mid-America, Northland, and Seattle Districts.

Facility Systems Do Not Allow for Effective Management of Excess Space

The Postal Service is experiencing a considerable workload decline which has resulted
in significant excess space. However, the electronic system that manages facility space
does not collect or monitor metrics such as length of time space is underused or vacant
and the condition of excess space in order to efficiently prioritize disposal actions.

For comparison purposes, we benchmarked Postal Service facility practices against the
General Services Administration’s (GSA) realty management practices and found that
GSA “ages” its available space for tracking, monitoring, and decision-making. The
Postal Service is not able to age excess space as it does not collect dates on entry.

GSA’s Public Buildings Service also manages its leased portfolio by focusing on four
primary areas: reducing vacancy, managing lease administration expenses, managing
customer requirements, and analyzing market trends. Similarly, GSA-owned facilities
are monitored and analyzed using performance metrics such as revenue, funds from
operations, operating costs, vacancy, net operating income, and return on equity. The
Postal Service’s facility management systems are not able to manage property in this
manner. For example, rents from leases or subleases are tracked manually using
electronic spreadsheets.

Additionally, because the Postal Service’s eFMS calculates space based on delivery
and retail metrics, the excess space reported for processing and distribution plants is
inaccurate. Therefore, it is not a reliable source for identifying how much excess space
is available in its plants. The Postal Service plans to measure plants and update the
facility database. To complete this task, industrial engineers, working with local in-plant
support, are using blueprints to identify processing equipment, staging areas, and
manual work areas and identify excess space.

We estimate if the Western Area initiated disposal actions, there is a potential
opportunity to realize $173,835,88111 over typical and remaining lease terms. This
amount is considered funds that could be used more efficiently by implementing
recommended actions. See Appendix C for the monetary impact calculation and
assumptions.




11
     The annualized savings would be $17,383,588.


                                                    13
          Facility Optimization: Western Area                                                                    DA-AR-11-001



          Opportunity to Fulfill Federal Space Needs

          GSA is the nation's largest public real estate organization. It provides workspace for
          more than 1 million federal workers through its Public Buildings Service. According to
          the Code of Federal Regulations (CFR), in situations when GSA-controlled space is not
          available, federal agencies must extend priority consideration to available space in
          Postal Service buildings.12

          Our audit noted that the Postal Service can be more aggressive in seeking opportunities
          to fill the space needs of federal entities. Table 3 illustrates the potential fulfillment
          opportunities in each of the five districts reviewed in the Western Area. Specifically, it
          shows that GSA leases on behalf of federal entities primarily from the commercial
          sector rather than the Postal Service. Space requirements were greater than the excess
          space identified in Postal Service facilities. GSA paid considerably more per square foot
          than the value assigned to the Postal Service space.13

                             Table 3 – Postal Service Excess Space Lease Opportunity
                                                                          Existing                   Postal
                                     Postal                   Postal                                               Number of GSA
                       GSA                         GSA                     GSA/         GSA         Service
                                     Service                  Service                                              Leases Excess
 Districts            Leased                      Facility                 Postal      Average      Average
                                     Excess                   Facility                                               Space May
                        SF                        Count                   Service      SF Cost        SF
                                       SF                     Count                                                Accommodate
                                                                          Leases                     Value
Alaska               1,018,247        346,940         132          143             1      $28.07       $26.64       99 of 132   75%
Central
                     2,798,922      1,303,200         139          617             1      $15.63          5.86    120 of 139    86%
Plains
Mid-
                     5,651,707        967,024         134          343             4      $12.53          6.91      82 of 134   61%
America
Northland            1,216,795      1,120,675         127          409             0      $24.67          8.38    100 of 127    79%

Seattle              3,240,385        800,601         234          202             5      $27.16        11.44     143 of 234    61%
Total               13,926,056      4,538,440         766        1,714           11       $18.75        $9.28     544 of 766    71%

          Table 3 and Appendix D also illustrate the strong correlation between space
          leased by the GSA and the ability of the Postal Service to significantly
          accommodate federal space needs. For the districts reviewed, we estimate that
          Postal Service excess space may accommodate 544 of 766 (or 71 percent) of
          current federal leases. However, we understand that more information is
          necessary to determine whether the Postal Service’s excess space would be
          suitable.




          12
               41 CFR 102-73.20.
          13
               We assigned Postal Service excess space a value based on historical lease rates in the same geographic areas.


                                                                    14
Facility Optimization: Western Area                                                                                                                                  DA-AR-11-001



                                                                       APPENDIX C: MONETARY IMPACTS
                                                                         FUNDS PUT TO BETTER USE
 Alaska Excess Interior Space Monetary Impacts 
 Project year                                    0                1              2             3               4                 5              6               7              8            9 

 Fiscal year                                    2011            2012           2013           2014           2015               2016           2017            2018          2019         2020 
                                                                                                                           

 Owned** 

 Sublease Value                              ($8,572,718)     $7,405,227     $7,405,227     $7,405,227     $7,405,227         $7,405,227     $7,405,227      $7,405,227    $1,851,307 

 Utility Savings                                              $1,042,403     $1,066,378     $1,090,904     $1,115,995         $1,141,663     $1,167,921      $1,194,784     $305,566 

 Custodial Savings                                             $639,340       $639,340       $639,340       $639,340           $639,340       $639,340        $639,340      $159,835 

 Leases Expiring FY 2011*** 

 Sublease Value                               ($521,165)       $450,189       $450,189       $450,189       $450,189           $450,189 

 Utility Savings                                                 $63,371        $64,829        $66,320        $67,845           $69,406 
 Custodial Savings                                               $38,868        $38,868        $38,868        $38,868           $38,868 

 Leases Expiring After 10/1/2011 

 Sublease Value                              ($1,605,746)     $1,387,065     $1,250,588     $1,227,944     $1,215,264         $1,204,581     $1,165,207      $1,141,071     $675,111     $494,358 
 Utility Savings                                               $195,251       $180,089       $180,895       $183,145           $185,710       $183,772        $184,104      $111,430      $83,473 

 Custodial Savings                                             $119,754       $107,971       $106,016       $104,921           $103,999       $100,600          $98,516      $58,287      $42,681 



 Subtotal                                ($10,699,630)       $11,341,469    $11,203,479    $11,205,704    $11,220,795     $11,238,983       $10,662,067     $10,663,042    $3,161,535    $620,512 
 Cash Flows @ Sub Lease Efficiency 
                                             ($9,276,579)     $9,833,053     $9,713,417     $9,715,346     $9,728,429         $9,744,199     $9,244,012      $9,244,858    $2,741,051    $537,984 
 Rate 
 Discounted at Postal Service cost of 
                                             ($9,276,579)     $9,466,237     $9,002,227     $8,668,125     $8,356,003         $8,057,326     $7,358,585      $7,084,725    $2,022,222    $382,094 
 borrowing 

                                                                        Net Present Value: $51,120,963

                      Build-Out Costs SF                                      $30.84                Utilities Savings SF per Year                          $3.75
                      Lease Savings SF per Year                               $26.64                Utility Cost Escalation Rate                           2.30%
                      Postal Service Cost
                       of Borrowing                                          3.875%        Custodial Rate SF                                               $4.60
                      Sub-lease Efficiency Rate                              86.7%
                                            Assumption:                     **Weighted Average Lease Years = 7.3


                                                                                                15
Facility Optimization: Western Area                                                                                                                                DA-AR-11-001




     Central Plains Excess Interior Space Monetary Impacts 
     Project year                                  0               1               2             3             4                5            6             7             8            9 

     Fiscal year                                 2011            2012            2013          2014          2015             2016         2017          2018          2019         2020 
                                                                                                                          

     Owned**                                                                                                              

     Sublease Value                          ($26,148,280)    $4,968,512      $4,968,512     $4,968,512    $4,968,512    $4,968,512      $4,968,512    $4,968,512    $1,242,128 

     Utility Savings                                          $1,076,794      $1,101,560     $1,126,896    $1,152,814    $1,179,329      $1,206,454    $1,234,202    $315,647 

     Custodial Savings                                        $1,004,725      $1,004,725     $1,004,725    $1,004,725    $1,004,725      $1,004,725    $1,004,725    $251,181 

     Leases Expiring After 10/1/2011 

     Sublease Value                          ($14,042,408)    $2,668,240      $2,270,914     $1,945,098    $1,601,403    $1,498,132      $252,062      $229,349      $139,497      $26,224 
     Utility Savings                                           $578,270        $503,480      $441,163      $371,564          $355,598     $61,206       $56,971       $35,449      $6,817 

     Custodial Savings                                         $539,567        $459,221      $393,335      $323,833          $302,950     $50,972       $46,379       $28,209      $5,303 



     Subtotal                                ($40,190,688)    $10,836,108     $10,308,412    $9,879,728    $9,422,852    $9,309,246      $7,543,930    $7,540,138    $2,012,111    $38,344 
     Cash Flows @ Sub Lease Efficiency 
                                             ($34,845,326)    $9,394,906      $8,937,393     $8,565,725    $8,169,613    $8,071,116      $6,540,587    $6,537,299    $1,744,501    $33,244 
     Rate 
     Discounted at Postal Service cost of 
                                             ($34,845,326)    $9,044,434      $8,283,022     $7,642,422    $7,017,094    $6,673,881      $5,206,556    $5,009,808    $1,287,013    $23,611 
     borrowing 



                                                                        Net Present Value: $15,342,513

                        Build-Out Costs SF                                   $30.84             Utilities Savings SF per Year                          $1.27
                        Lease Savings SF per Year                            $5.86              Utility Cost Escalation Rate                           2.30%
                        Postal Service Cost
                         of Borrowing                                        3.875%             Custodial Rate SF                                      $2.37
                        Sub-lease Efficiency Rate                            86.7%




                                                                                               16
Facility Optimization: Western Area                                                                                                                               DA-AR-11-001




     Mid America Excess Interior Space Monetary Impacts
     Project year                                 0               1             2             3             4               5             6             7              8            9

     Fiscal year                                 2011           2012          2013          2014          2015             2016         2017          2018           2019         2020

                                                                                                                       

     Owned**                                                                                                           

     Sublease Value                       ($12,959,201)       $4,531,785    $4,531,785    $4,531,785    $4,531,785   $4,531,785       $4,531,785    $4,531,785     $1,132,946 

     Utility Savings                                          $1,003,420    $1,026,499    $1,050,108    $1,074,261   $1,098,969       $1,124,245    $1,150,102      $294,139 

     Custodial Savings                                         $950,954      $950,954      $950,954      $950,954         $950,954     $950,954      $950,954       $237,738 

     Leases Expiring FY 2011*** 

     Sublease Value                           ($1,306,294)     $456,806      $456,806      $456,806      $456,806         $456,806 

     Utility Savings                                           $101,145      $103,472      $105,851      $108,286         $110,777 

     Custodial Savings                                          $95,857       $95,857       $95,857       $95,857          $95,857 

     Leases Expiring After 10/1/2011 

     Sublease Value                           ($4,842,899)    $1,693,544     $974,151      $866,376      $540,659         $526,749     $473,826      $440,271       $396,579     $275,053 

     Utility Savings                                           $374,982      $220,656      $200,757      $128,163         $127,738     $117,547      $111,734       $102,961      $73,052 

     Custodial Savings                                         $355,375      $204,417      $181,801      $113,452         $110,534      $99,428       $92,387        $83,218      $57,717 



     Subtotal                             ($19,108,394)       $9,563,867    $8,564,595    $8,440,295    $8,000,223   $8,010,168       $7,297,784    $7,277,233     $2,247,581    $405,822 
     Cash Flows @ Sub Lease Efficiency 
                                          ($16,566,978)       $8,291,873    $7,425,504    $7,317,736    $6,936,193   $6,944,815       $6,327,179    $6,309,361     $1,948,653    $351,848 
     Rate 
     Discounted at Postal Service cost 
                                          ($16,566,978)       $7,982,549    $6,881,829    $6,528,954    $5,957,678   $5,742,560       $5,036,674    $4,835,130     $1,437,627    $249,894 
     of borrowing 


                                                                      Net Present Value: $28,085,917

                        Build-Out Costs SF                                  $19.76                Utilities Savings SF per Year                        $1.53
                        Lease Savings SF per Year                            $6.91                Utility Cost Escalation Rate                         2.30%
                        Postal Service Cost
                         of Borrowing                                       3.875%                Custodial Rate SF                                    $2.90
                        Sub-lease Efficiency Rate                            86.7%

                                                                                             17
Facility Optimization: Western Area                                                                                                                         DA-AR-11-001




   Northland Excess Interior Space Monetary Impacts
   Project year                              0               1              2             3               4              5              6             7             8            9 
   Fiscal year                             2011            2012           2013           2014           2015            2016          2017          2018          2019         2020 


   Owned** 
   Sublease Value                       ($5,065,183)     $5,978,342     $5,978,342     $5,978,342     $5,978,342      $5,978,342    $5,978,342    $5,978,342    $1,494,586 
   Utility Savings                                       $1,298,399     $1,328,262     $1,358,812     $1,390,065      $1,422,036    $1,454,743    $1,488,202     $380,608 
   Custodial Savings                                     $1,148,584     $1,148,584     $1,148,584     $1,148,584      $1,148,584    $1,148,584    $1,148,584     $287,146 


   Leases Expiring FY 2012*** 
   Sublease Value                        ($368,966)       $435,483       $435,483       $435,483       $435,483        $435,483 
   Utility Savings                                          $94,580        $96,755        $98,981      $101,257        $103,586 
   Custodial Savings                                        $83,667        $83,667        $83,667        $83,667         $83,667 


   Leases Expiring After 10/1/2011 
   Sublease Value                       ($2,522,644)     $2,977,431     $1,804,030     $1,497,053      $968,929        $941,099      $850,386      $708,914      $513,971     $397,681 
   Utility Savings                                        $646,650       $400,817       $340,264       $225,292        $223,854      $206,929      $176,472      $130,887     $103,602 
   Custodial Savings                                      $572,036       $346,598       $287,620       $186,155        $180,808      $163,380      $136,200       $98,746      $76,404 


   Subtotal                             ($7,956,793)    $13,235,172    $11,622,538    $11,228,807    $10,517,774     $10,517,460    $9,802,363    $9,636,714    $2,905,942    $577,687 
   Cash Flows @ Sub Lease Efficiency 
                                        ($6,898,539)    $11,474,894    $10,076,741     $9,735,375     $9,118,910      $9,118,638    $8,498,649    $8,355,031    $2,519,452    $500,855 
   Rate 
   Discounted at Postal Service cost 
                                        ($6,898,539)    $11,046,829     $9,338,949     $8,685,995     $7,832,471      $7,540,060    $6,765,247    $6,402,813    $1,858,736    $355,724 
   of borrowing 




                                                                  Net Present Value: $52,928,285

                   Build-Out Costs SF                                  $7.10              Utilities Savings SF per Year                       $1.82
                   Lease Savings SF per Year                           $8.38              Utility Cost Escalation Rate                        2.30%
                   Postal Service Cost
                    of Borrowing                                       3.875%             Custodial Rate SF                                   $3.22
                   Sub-lease Efficiency Rate                             86.7%




                                                                                           18
Facility Optimization: Western Area                                                                                                                                 DA-AR-11-001




   Seattle Excess Interior Space Monetary Impacts 
   Project year                                 0                1              2             3                4                 5              6             7             8            9 

   Fiscal year                                 2012            2013           2014           2015             2016              2017          2018          2019          2020         2020 
                                                                                                                           

   Owned**                                                                                                                 

   Sublease Value                       ($24,421,368)        $5,988,863     $5,988,863     $5,988,863     $5,988,863          $5,988,863    $5,988,863    $5,988,863    $1,497,216 

   Utility Savings                                           $1,104,589     $1,129,995     $1,155,985     $1,182,572          $1,209,771    $1,237,596    $1,266,061     $323,795 

   Custodial Savings                                         $1,067,944     $1,067,944     $1,067,944     $1,067,944          $1,067,944    $1,067,944    $1,067,944     $266,986 

   Leases Expiring FY 2011*** 

   Sublease Value                           ($3,544,327)      $869,177       $869,177       $869,177       $869,177            $869,177 

   Utility Savings                                            $160,311       $163,999       $167,771       $171,629            $175,577 

   Custodial Savings                                          $154,993       $154,993       $154,993       $154,993            $154,993 

   Leases Expiring After 10/1/2011 
   Sublease Value                           ($9,382,341)     $2,300,836     $1,684,060     $1,218,097     $1,050,249          $1,012,463     $828,279      $620,254      $374,786     $222,794 

   Utility Savings                                            $424,367       $317,753       $235,120       $207,384            $204,521      $171,164      $131,123       $81,053      $49,291 

   Custodial Savings                                          $410,289       $300,304       $217,213       $187,282            $180,544      $147,700      $110,605       $66,832      $39,729 



   Subtotal                             ($37,348,037)       $12,481,370    $11,677,087    $11,075,162    $10,880,094      $10,863,853       $9,441,546    $9,184,850    $2,610,668    $311,814 
   Cash Flows @ Sub Lease Efficiency 
                                        ($32,380,748)       $10,821,347    $10,124,034     $9,602,166     $9,433,042          $9,418,961    $8,185,820    $7,963,265    $2,263,449    $270,342 
   Rate 
   Discounted at Postal Service cost 
                                        ($32,380,748)       $10,417,663     $9,382,780     $8,567,144     $8,102,287          $7,788,392    $6,516,224    $6,102,586    $1,669,869    $192,006 
   of borrowing 



                                                                           Net Present Value: $26,358,203

                         Build-Out Costs SF                                     $46.65               Utilities Savings SF per Year                           $2.11
                         Lease Savings SF per Year                              $11.44               Utility Cost Escalation Rate                            2.30%
                         Postal Service
                          Cost of Borrowing                                    3.875%                Custodial Rate SF                                       $4.08
                         Sub-lease Efficiency Rate                              86.7%
                                               A                       i      **W i h d A                 L           Y               3



                                                                                              19
Facility Optimization: Western Area                                                                    DA-AR-11-001




Value Assigned to the Excess Space

Table 4 shows the value per square foot for each district. Using the Facility Inventory
Reports from the eFMS, we calculated this figure by dividing total interior square
footage by total lease costs.

Utility Costs Associated with the Excess Space

Table 4 shows the utility cost per square foot for each district. Using the information
from line 42 of the Financial Performance Report (FPR), we calculated this figure by
dividing the total annual utility expenses by the district’s total interior square footage,
with a cost escalation rate of 2.3 percent.

Maintenance Costs Associated with the Excess Space

Table 4 shows the maintenance cost per square foot for each district. We calculated this
cost by dividing the total annual maintenance expenses14 by the district’s total interior
square footage. However, we reduced the cost by 50 percent, based on previously
identified savings in a custodial maintenance audit.15

Build-Out Costs Associated with Implementing Optimization Actions

Table 4 shows the build-out cost per square foot for each district. We calculated this
figure by dividing the “build-out/Line 63 capital” costs for all approved optimization node
studies in each district by the total reduction in square footage identified in the approved
node studies.

For the Mid-America, Northland, and Seattle Districts, we calculated the average
build-out cost and then removed any “outliers,” such as items with no build-out cost or
items whose build-out cost per square foot was not in keeping with the emerging range
of costs to generate a new build-out cost. However, in the Alaska and Central Plains
Districts, there were not enough node studies with build-out costs to be considered
representative of the district. In these cases, we calculated the build-out cost per square
foot for the entire Western Area, which is $30.84. We calculated this figure using the
same methodology as the district cost, but expanded the scope to include all node
studies for districts in the Western Area.




14
     eFlash (Labor Distribution Code 38, salary and benefits) + FPR Line 3F Contract Cleaners Costs.
15
     Custodial Maintenance (Report Number DA-AR-09-011, dated August 13, 2009).


                                                          20
Facility Optimization: Western Area                                                                    DA-AR-11-001




                       Table 4 – Square Footage Costs by District
                              Lease       Utility  Maintenance Build out
              District
                            Cost/SF      Cost/SF     Cost/SF      Cost/SF16
           Alaska               $26.64       $3.75        $4.60     $30.84
           Central Plains        $5.86       $1.27        $2.37     $30.84
           Mid-America           $6.91       $1.53        $2.90     $19.76
           Northland             $8.38       $1.82        $3.22       $7.10
           Seattle              $11.44       $2.11        $4.08     $46.65

Ownership of Facility and Term Years

We categorized all facilities in the district by ownership – leased versus
Postal Service-owned. We further grouped the leased properties by the number of term
years remaining on the lease.

We calculated leases expiring before the end of FY 2011 based on the assumption that
these lease would be renewed for the standard 5-year period. We calculated leases
expiring after October 1, 2011, for the remaining lease term. We calculated
Postal Service-owned facilities over a period of 7.3 years, which was the historical
national average lease term.

Sublease Efficiency Rate

We identified the national commercial property vacancy rate from the National Realty
Association for industrial and retail space as 13.3 percent, so we reduced the net
present value savings realization to an 86.7 percent “success rate.”




16
  While build-out costs are negotiable and, at times, paid for by the lessor, these costs ranged from $0 per square
footage to $169.49 per square footage in the node studies analyzed.


                                                          21
Facility Optimization: Western Area                                            DA-AR-11-001




               APPENDIX D: GSA-LEASED PROPERTIES COMPARED TO
                        POSTAL SERVICE EXCESS SPACE

Alaska District




The pie chart illustrates the ratio of Postal Service excess space to GSA-leased
commercial space. The table below provides additional analysis by placing the real
estate into size categories to further assess supply versus demand.

                                                                    GSA             OIG
                                                      Building
                                                                   Leased        Identified
                                                      Size (SF)
                                                                  Facilities      Excess
                                                       1,000         27              71
                                                       5,000         56             55
                                                      10,000         19               9
                                                      20,000         14              7
                                                      30,000         12               1
                                                      40,000          2              0
                                                      50,000          0               0
                                                       More           2               0
                                                    Total Count     132             143



                                          22
Facility Optimization: Western Area                                           DA-AR-11-001



Central Plains District




The pie chart illustrates the ratio of Postal Service excess space to
GSA-leased commercial space. The table below provides additional analysis by placing
the real estate into size categories to further assess supply versus demand.

                                                                   GSA            OIG
                                                     Building
                                                                  Leased       Identified
                                                     Size (SF)
                                                                 Facilities     Excess
                                                      1,000          19           393
                                                      5,000          43           151
                                                     10,000          37            52
                                                     20,000         19             15
                                                     30,000           5             3
                                                     40,000          2              1
                                                     50,000           1             0
                                                      More           13             2
                                                   Total Count      139           617




                                         23
Facility Optimization: Western Area                                         DA-AR-11-001



Mid-America District




The pie chart illustrates the ratio of Postal Service excess space to GSA-leased
commercial space. The table below provides additional analysis by placing the real
estate into size categories to further assess supply versus demand.

                                                                   GSA       OIG
                                                    Building
                                                                  Leased Identified
                                                    Size (SF)
                                                                 Facilities Excess
                                                      1,000          8       162
                                                      5,000         26       130
                                                     10,000         32        26
                                                     20,000         28        18
                                                     30,000          7         1
                                                     40,000          8         1
                                                     50,000          3         2
                                                      More          22         0
                                                   Total Count     134       340




                                          24
Facility Optimization: Western Area                                          DA-AR-11-001



Northland District




The pie chart illustrates the ratio of Postal Service excess space to
GSA-leased commercial space. The table below provides additional analysis by placing
the real estate into size categories to further assess supply versus demand.

                                                                  GSA             OIG
                                                    Building
                                                                 Leased        Identified
                                                    Size (SF)
                                                                Facilities      Excess
                                                     1,000          14            211
                                                     5,000          46            141
                                                    10,000          39             27
                                                    20,000          9              21
                                                    30,000           9              4
                                                    40,000          5               0
                                                    50,000           1              0
                                                     More            4              0
                                                  Total Count      127            404




                                         25
Facility Optimization: Western Area                                          DA-AR-11-001



Seattle District




The pie chart illustrates the ratio of Postal Service excess space to GSA-leased
commercial space. The table below provides additional analysis by placing the real
estate into size categories to further assess supply versus demand.

                                                                  GSA           OIG
                                                   Building
                                                                 Leased      Identified
                                                    Size
                                                                Facilities    Excess
                                                    1,000           31           78
                                                    5,000           68          108
                                                   10,000           59           22
                                                   20,000          41           16
                                                   30,000           10            4
                                                   40,000           6            1
                                                   50,000            6            0
                                                    More            13            1
                                                 Total Count       234          230




                                          26
Facility Optimization: Western Area                         DA-AR-11-001




                        APPENDIX E: MANAGEMENT’S COMMENTS




                                       27
Facility Optimization: Western Area        DA-AR-11-001




                                      28
Facility Optimization: Western Area        DA-AR-11-001




                                      29
Facility Optimization: Western Area        DA-AR-11-001




                                      30
Facility Optimization: Western Area        DA-AR-11-001




                                      31
